                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION



Office of Inspector General—Office of Audit




                                              REPORT RELATING TO THE
                                              FEDERAL EMPLOYEES’ COMPENSATION ACT
                                              SPECIAL BENEFIT FUND
                                              September 30, 2006




                                                                        Date Issued: October 24, 2006
                                                                     Report Number: 22-07-002-04-431
                                                                                  Report Relating to the
                                                Federal Employees’ Compensation Act Special Benefit Fund


Table of Contents
Assistant Inspector General for Audit’s Memorandum……………………… .......................... 3

1.    A.   Independent Auditors' Report on the Schedule of Actuarial Liability, Net
            Intra-Governmental Accounts Receivable and Benefit Expense........................ 5

      B.   Schedule of Actuarial Liability, Net Intra-Governmental Accounts
            Receivable and Benefit Expense ........................................................................... 7

      C.   Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
            Accounts Receivable and Benefit Expense.......................................................... 9

2.    A.   Independent Accountants' Report on Applying Agreed-Upon
            Procedures............................................................................................................. 13

      B.   Schedules

             Schedule of Actuarial Liability by Agency......................................................... 15

             Schedule of Net Intra-Governmental Accounts Receivable by Agency.......... 17

             Schedule of Benefit Expense by Agency........................................................... 19

      C.   Agreed-Upon Procedures and Results

             Actuarial Liability ................................................................................................. 21

             Net Intra-Governmental Accounts Receivable .................................................. 26

             Benefit Expense ................................................................................................... 31

Appendix
             Acronyms and Abbreviations ............................................................................. 36




U.S. Department of Labor—Office of Inspector General                                                                                1
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                    THIS PAGE IS INTENTIONALLY LEFT BLANK




2                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-002-04-431
                                                                        Report Relating to the
                                      Federal Employees’ Compensation Act Special Benefit Fund



U.S. Department of Labor                             Office of Inspector General
                                                     Washington, DC 20210




                 Assistant Inspector General for Audit’s Memorandum

October 24, 2006

MEMORANDUM FOR:               FEDERAL AGENCIES WITH RESPONSIBILITIES
                              FOR THE FECA PROGRAM




FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General for Audit

SUBJECT:                      Report Relating to the Federal Employees’ Compensation Act
                              Special Benefit Fund – FY 2006
                              Report No. 22-07-002-04-431

Attached is the report on the Federal Employees’ Compensation Act (FECA) Special Benefit
Fund (the Fund) that was prepared to assist in the audit of your agency’s annual financial
statements. The U.S. Department of Labor, Employment Standards Administration, Office of
Workers’ Compensation Programs (OWCP), administers the Fund and the DOL Office of
Inspector General is responsible for auditing the Fund.

The Office of Inspector General contracted with the independent certified public accounting firm
of KPMG LLP (KPMG) to prepare the report on the Fund as of and for the year ended
September 30, 2006. This report consists of two separate reports. The first report is an opinion on
the total actuarial liability, net intra-governmental accounts receivable, and total benefit expense
of the Fund as of and for the year ended September 30, 2006. The auditor issued an unqualified
opinion on this report. The second report is an agreed-upon procedures (AUP) report on the
schedules of actuarial liability, net intra-governmental accounts receivable, and benefit expense
by agency as of and for the year ended September 30, 2006. This report includes a description of
the procedures performed and the results of those procedures.

KPMG issued a third and separate report on internal controls and compliance relating to the
FECA Special Benefit Fund dated October 13, 2006. This report contains sensitive information
and is being distributed separately.

The sufficiency of the procedures referred to in the AUP is solely the responsibility of the parties
specified in this report. Consequently, neither the Office of Inspector General nor KPMG makes



U.S. Department of Labor—Office of Inspector General                                              3
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

any representations regarding the sufficiency of the procedures. Because the AUP performed did
not constitute an audit, the auditor did not express an opinion on any elements, accounts or items
as they pertained to the AUP report. Further, neither the Office of Inspector General nor KPMG
has any obligation to perform any procedures beyond those listed in the attached report.

KPMG is responsible for the attached report dated October 13, 2006, and the conclusions
expressed in the report. We reviewed KPMG’s report and related documentation and inquired of
its representatives. Our review, as differentiated from an audit in accordance with generally
accepted government auditing standards, was not intended to enable us to express, and we do not
express, opinions on: the total actuarial liability, net intra-governmental accounts receivable, and
total benefit expense of the Fund as of and for the year ended September 30, 2006; or the AUP
report on the schedules of actuarial liability, net intra-governmental accounts receivable, and
benefit expense by agency as of and for the year ended September 30, 2006. However, our
review disclosed no instances where KPMG did not comply, in all material respects, with
generally accepted government auditing standards.

If you have any comments or suggestions on the contents or sufficiency of this report or the
procedures performed that you would like considered for future audits, please send your
comments via regular mail, facsimile, or e-mail to:


               Michael T. McFadden
               Director, Office of Accountability Audits
               U.S. Department of Labor
               Office of Inspector General
               200 Constitution Ave., N.W., Room N-5620
               Washington, D.C. 20210

               Fax: (202) 693-5237
               e-mail: mcfadden.michael@oig.dol.gov

Attachment




4                                           U.S. Department of Labor—Office of Inspector General
                                                               Report Number: : 22-07-002-04-431
                                                                            Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036




                                                 SECTION 1A
                       Independent Auditors’ Report on the
               Schedule of Actuarial Liability, Net Intra-Governmental
                    Accounts Receivable and Benefit Expense

  Victoria A. Lipnic, Assistant Secretary
  Employment Standards Administration, U.S. Department of Labor,
   Government Accountability Office, Office of Management and Budget,
   and Federal Agencies with Responsibility for the FECA Program:

  We have audited the accompanying Schedule of Actuarial Liability and Net Intra-
  Governmental Accounts Receivable as of September 30, 2006 and Benefit Expense
  for the year ended September 30, 2006 of the U.S. Department of Labor’s Federal
  Employees' Compensation Act Special Benefit Fund (the Schedule). This schedule is
  the responsibility of the U.S. Department of Labor's management. Our responsibility is
  to express an opinion on this schedule based on our audit.

  We conducted our audit in accordance with auditing standards generally accepted in
  the United States of America, and the standards applicable to financial audits
  contained in Government Auditing Standards, issued by the Comptroller General of
  the United States. Those standards require that we plan and perform the audit to
  obtain reasonable assurance about whether the schedule is free of material
  misstatement. An audit includes examining, on a test basis, evidence supporting the
  amounts and disclosures in the schedule. An audit also includes assessing the
  accounting principles used and significant estimates made by management, as well
  as evaluating the overall schedule presentation. We believe that our audit provides a
  reasonable basis for our opinion.

  In our opinion, the Schedule of Actuarial Liability, Net Intra-Governmental Accounts
  Receivable and Benefit Expense referred to above presents fairly, in all material
  respects, the actuarial liability and net intra-governmental accounts receivable as of
  September 30, 2006 and benefit expense for the year ended September 30, 2006 of
  the U.S. Department of Labor’s Federal Employees' Compensation Act Special
  Benefit Fund in conformity with U.S. generally accepted accounting principles.




U.S. Department of Labor—Office of Inspector General                                            5
Report Number: 22-07-002-04-431
                               KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                               a member of KPMG International, a Swiss cooperative.
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




    In accordance with Government Auditing Standards, we have also issued our report
    dated October 13, 2006, on our consideration of DOL’s internal control over financial
    reporting and our tests of its compliance with certain provisions of laws, regulations,
    and contracts and other matters. The purpose of that report is to describe the scope
    of our testing of internal control over financial reporting and compliance and the
    results of that testing, and not to provide an opinion on the internal control over
    financial reporting or on compliance. That report is an integral part of an audit
    performed in accordance with Government Auditing Standards and should be read in
    conjunction with this report in assessing the results of our audit.

    This report is intended solely for the information and use of the U.S. Department of
    Labor, Government Accountability Office, Office of Management and Budget and
    those Federal agencies with responsibility for the FECA program and is not intended
    to be and should not be used by anyone other than these specified parties.



October 13, 2006




6                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: : 22-07-002-04-431
                                                                      Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                        SECTION 1B
                            U.S. Department of Labor
            Federal Employees’ Compensation Act Special Benefit Fund
           Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2006 and Benefit Expense
                   For the Year Ended September 30, 2006

                                  (dollars in thousands)

       Actuarial Liability                                              $ 25,851,505


       Net Intra-Governmental Accounts Receivable                        $ 3,702,485


       Benefit Expense                                                   $ 2,331,735




                              See accompanying notes to schedule.




U.S. Department of Labor—Office of Inspector General                                      7
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                    THIS PAGE IS INTENTIONALLY LEFT BLANK




8                                       U.S. Department of Labor—Office of Inspector General
                                                           Report Number: : 22-07-002-04-431
                                                                      Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2006 and Benefit Expense
                     For the Year Ended September 30, 2006

1.     Significant Accounting Policies

       a.   Basis of Presentation

       This schedule has been prepared to report the actuarial liability, net intra-
       governmental accounts receivable and benefit expense of the Federal
       Employees' Compensation Act (FECA) Special Benefit Fund. The Special Benefit
       Fund was established by the Federal Employees' Compensation Act to provide
       for the financial needs resulting from compensation and medical benefits
       authorized under the Act. The U.S. Department of Labor (DOL), Employment
       Standards Administration (ESA) is charged with the responsibility of operating
       the Special Benefit Fund under the provisions of the Act. The schedule has been
       prepared from the accounting records of the Special Benefit Fund.

       The actuarial liability, net intra-governmental accounts receivable and benefit
       expense of the Special Benefit Fund are considered specified accounts for the
       purpose of this schedule. ESA is responsible for providing this information to the
       CFO Act agencies and other specified agencies to support and prepare their
       respective financial statements.

       The actuarial liability is an accrued estimate of future workers' compensation
       benefits as of September 30, 2006. Historical benefits paid, inflation and interest
       rate assumptions, and other economic factors are applied to the actuarial model
       that calculates the liability estimate. The net intra-governmental accounts
       receivable is the amount due from Federal agencies for benefit payments paid to
       or on behalf of employees and other beneficiaries of the employing agency as of
       September 30, 2006. The net intra-governmental accounts receivable includes
       amounts which were billed to the employing agencies through June 30, 2006, but
       not paid as of September 30, 2006, including prior years, if applicable, plus the
       accrued receivable for benefit payments not yet billed for the period of July 1,
       2006 through September 30, 2006, less credits due from the public. Benefit
       expense consists of benefits paid and accrued for the period from October 1,
       2005 to September 30, 2006, plus the net change in the actuarial liability for the
       year.




U.S. Department of Labor—Office of Inspector General                                      9
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                      SECTION 1C
     Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
      Accounts Receivable as of September 30, 2006 and Benefit Expense
                    For the Year Ended September 30, 2006

      Benefit payments are intended to provide income and medical cost protection to
      covered Federal civilian employees and certain designated groups injured on the
      job, employees and certain designated groups who have incurred a work-related
      occupational disease, and their survivors in the event of death that is attributable
      to job-related injury or occupational disease.

b.    Basis of Accounting

      The accounting and reporting policies of the Federal Employees' Compensation
      Act Special Benefit Fund relating to the Schedule of Actuarial Liability and Net
      Intra-Governmental Accounts Receivable as of September 30, 2006 and Benefit
      Expense For the Year Ended September 30, 2006 (the Schedule) are reported
      on the accrual basis of accounting and conform to U.S. generally accepted
      accounting principles.

      An estimate of claims that have been incurred but not reported (IBNR) are
      included in the actuarial liability. Therefore, the actuarial liability represents the
      estimated present value of future compensation and medical payments based
      upon approved claims, plus a component for incurred but not reported claims.

2.    Actuarial Liability (Future Workers’ Compensation Benefits)

      The Special Benefit Fund was established under the authority of the Federal
      Employees' Compensation Act to provide income and medical cost protection to
      covered Federal civilian employees injured on the job, employees who have
      incurred a work-related occupational disease and their survivors in the event
      death is attributable to a job-related injury or occupational disease. The fund is
      reimbursed by other Federal agencies for the FECA benefit payments made on
      behalf of their workers.

      The actuarial liability for future workers’ compensation reported on the schedule
      includes the expected liability for death, disability, medical and miscellaneous
      costs for approved cases. The liability is determined using a method that utilizes
      historical benefit payment patterns related to a specific incurred period to predict
      the ultimate payments related to that period. The actuarial model uses a Paid
      Loss Development Method by agency, by defined agency groups, and in total,
      using inflation rate assumptions on both past and future indemnity and medical
      benefits to adjust past data and project forward.



10                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-002-04-431
                                                                      Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund



                                           SECTION 1C
      Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
       Accounts Receivable as of September 30, 2006 and Benefit Expense
                     For the Year Ended September 30, 2006

       Consistent with past practice and as allowed under U.S. generally accepted
       accounting principles, these projected annual benefit payments have been
       discounted to present value using the Office of Management and Budget's (OMB)
       economic assumptions for 10-year Treasury notes and bonds. The interest rate
       assumptions utilized for discounting was 5.17% in year 1 and 5.31% in
       subsequent years.

       To provide more specifically for the effects of inflation on the liability for future
       workers' compensation benefits, wage inflation factors (cost of living allowance or
       COLA) and medical inflation factors (consumer price index-medical or CPI-Med)
       are applied to the calculation of projected future benefits. These factors are also
       used to adjust the historical payments to current year constant dollars. The
       liability is determined assuming an annual payment at mid-year.

       The compensation COLA and the CPI-Med used in the model's calculation of
       estimates were as follows:

                           FY            COLA          CPI-Med

                          2007          3.50%          4.00%
                          2008          3.13%          4.01%
                          2009          2.40%          4.01%
                          2010          2.40%          4.03%
                          2011          2.43%          4.09%
       The medical inflation rates presented represent an average of published
       quarterly rates covering the benefit payment fiscal year. The compensation
       factors presented are the blended rates used by the model rather than the
       published June 7, 2006 FECA-COLA factor from which the blended rates are
       derived.

3.     Net Intra-Governmental Accounts Receivable

       Net intra-governmental accounts receivable is the total of the amounts billed to
       Federal agencies through June 30, 2006 but had not been paid as of
       September 30, 2006, including prior year’s amounts billed, if applicable, plus an
       accrued receivable for benefit payments not yet billed for the period July 1, 2006
       through September 30, 2006, less applicable credits. The FECA Special Benefit
       Fund also receives an appropriation for special cases and older cases where
       employing agencies are not charged for benefit payments.

U.S. Department of Labor—Office of Inspector General                                     11
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



                                           SECTION 1C
     Notes to the Schedule of Actuarial Liability and Net Intra-Governmental
      Accounts Receivable as of September 30, 2006 and Benefit Expense
                    For the Year Ended September 30, 2006

      Each Federal agency is required by the Federal Employees’ Compensation Act
      to include in their annual budget estimate a request for an appropriation in the
      amount equal to the agency cost. Agencies not receiving an appropriation are
      required to pay agency costs from funds directly under their control. In addition,
      certain corporations and instrumentalities are assessed under the Federal
      Employees' Compensation Act for a fair share of the costs of administering
      disability claims filed by their employees. The fair share costs are included in the
      calculation to determine the net intra-governmental accounts receivable.

4.    Benefit Expense
      Benefit expense for the year ended September 30, 2006 was comprised of the
      following (dollars in thousands):

               Benefits paid for compensation               $ 1,814,705
               Benefits paid for medical benefits               694,588
               Change in accrued benefits                       (21,370)
               Change in actuarial liability                   (156,188)

                   Total benefit expense                    $ 2,331,735




12                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-002-04-431
                                                                            Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund




                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036



                                                 SECTION 2A
                           Independent Accountants’ Report
                         on Applying Agreed-Upon Procedures

 Victoria A. Lipnic, Assistant Secretary
 Employment Standards Administration, U.S. Department of Labor,
   Government Accountability Office, Office of Management and Budget,
   and Federal Agencies with Responsibility for the FECA Program:

We have performed the procedures described in Section 2C, Agreed-Upon Procedures
and Results, which were agreed to by the U.S. Department of Labor, Government
Accountability Office, Office of Management and Budget, and Federal agencies with
responsibility for the FECA program, solely to assist you and such agencies with
respect to the accompanying Schedules of Actuarial Liability by Agency and Net Intra-
Governmental Accounts Receivable by Agency as of September 30, 2006, and Benefit
Expense by Agency for the year ended September 30, 2006, of the U.S. Department of
Labor Federal Employees' Compensation Act Special Benefit Fund (the Schedules).
The U.S. Department of Labor is responsible for the Schedules (Section 2B).

This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public
Accountants and with Government Auditing Standards, issued by the Comptroller
General of the United States.

The sufficiency of the procedures is solely the responsibility of the parties specified in
this report. Consequently, we make no representation regarding the sufficiency of the
procedures described in Section 2C either for the purpose for which this report has
been requested or for any other purpose. Our agreed-upon procedures and results are
presented in Section 2C of this report.

We were not engaged to, and did not perform an audit of the Schedules of Actuarial
Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency and
Benefit Expense by Agency, the objective of which is the expression of an opinion on
the Schedules or a part thereof. Accordingly, we do not express such an opinion. Had
we performed additional procedures, other matters might have come to our attention
that would have been reported to you.




U.S. Department of Labor—Office of Inspector General                                           13
Report Number: 22-07-002-04-431
                               KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                               a member of KPMG International, a Swiss cooperative.
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




This report is intended solely for the information and use of the U.S. Department of
Labor, Government Accountability Office, Office of Management and Budget and those
federal agencies with responsibility for the FECA program, and is not intended to be and
should not be used by anyone other than these specified parties.



October 13, 2006




14                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-002-04-431
                                                                       Report Relating to the
                                     Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2B
                            U.S. Department of Labor
                      Employment Standards Administration
            Federal Employees’ Compensation Act Special Benefit Fund
                       Schedule of Actuarial Liability by Agency
                             As of September 30, 2006

                                       (dollars in thousands)

                                                                              Actuarial
 AGENCY                                                                       Liability
 Agency for International Development                                     $     23,438
 Environmental Protection Agency                                                39,408
 General Services Administration                                               165,051
 National Aeronautics and Space Administration                                  60,217
 National Science Foundation                                                      1,287
 Nuclear Regulatory Commission                                                    7,434
 Office of Personnel Management                                                 20,448
 United States Postal Service                                                 8,662,714
 Small Business Administration                                                  27,045
 Social Security Administration                                                274,763
 Tennessee Valley Authority                                                    553,322
 U. S. Department of Agriculture                                               807,652
 U. S. Department of the Air Force                                            1,369,905
 U. S. Department of the Army                                                 1,973,869
 U. S. Department of Commerce                                                  170,164
 U. S. Department of Defense – other                                           813,532
 U. S. Department of Education                                                  16,952
 U. S. Department of Energy                                                     96,386
 U. S. Department of Health and Human Services                                 273,374
 U. S. Department of Homeland Security                                        1,519,329
 U. S. Department of Housing and Urban Development                              79,873
                                                                                  (continued)


U.S. Department of Labor—Office of Inspector General                                      15
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                         SECTION 2B
                                  U.S. Department of Labor
                            Employment Standards Administration
                  Federal Employees’ Compensation Act Special Benefit Fund
                                  Schedule of Actuarial Liability by Agency
                                        As of September 30, 2006

                                                      (dollars in thousands)


                                                                                                           Actuarial
 AGENCY                                                                                                    Liability
 U. S. Department of the Interior                                                                         $    678,923
 U. S. Department of Justice                                                                                   991,560
 U. S. Department of Labor                                                                                     242,525
 U. S. Department of the Navy                                                                                 2,698,683
 U. S. Department of State                                                                                      62,669
 U. S. Department of Transportation                                                                            952,969
 U. S. Department of the Treasury                                                                              600,737
 U. S. Department of Veterans Affairs                                                                         1,811,947
 Other agencies 1                                                                                              855,329
 Total - all agencies                                                                                     $ 25,851,505




1 Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.




16                                                           U.S. Department of Labor—Office of Inspector General
                                                                                 Report Number: 22-07-002-04-431
                                                                                                            Report Relating to the
                                                                          Federal Employees’ Compensation Act Special Benefit Fund

                                                                          SECTION 2B
                                          U.S. Department of Labor
                                    Employment Standards Administration
                          Federal Employees’ Compensation Act Special Benefit Fund
                                                   Schedule of Net Intra-Governmental
                                                    Accounts Receivable by Agency
                                                       As of September 30, 2006
                                                                     (dollars in thousands)


                                                                                                      Amounts                        Net Intra-
                                                                              Amounts                 Expended         Credits     Governmental
                                                                             Billed Not                Not Yet        Due from       Accounts
AGENCY                                                                       Yet Paid (1)             Billed (2)      Public (3)   Receivable (4)
Agency for International Development                                               $ 7,517                    1,025         (42)            8,500
Environmental Protection Agency                                                          7,322                1,208         (37)            8,493
General Services Administration                                                       29,172                  4,759       (145)            33,786
National Aeronautics and Space Administration                                         12,817                  2,306         (67)           15,056
National Science Foundation                                                                 250                 42           (1)              291
Nuclear Regulatory Commission                                                            1,609                 234           (7)            1,836
Office of Personnel Management                                                           3,888                 672          (17)            4,543
United States Postal Service                                                        (27,360)                274,798     (8,896)          238,542
Small Business Administration                                                            4,753                 912          (22)            5,643
Social Security Administration                                                        46,610                  7,521       (240)            53,891
Tennessee Valley Authority                                                            66,387                 17,654       (553)            83,488
U. S. Department of Agriculture                                                     138,826                  21,670       (706)          159,790
U. S. Department of the Air Force                                                   251,179                  40,511     (1,275)          290,415
U. S. Department of the Army                                                        281,156                  44,332     (1,435)          324,053
U. S. Department of Commerce                                                          27,499                  4,768       (151)            32,116
U. S. Department of Defense – other                                                 160,999                  24,917       (830)          185,086
U. S. Department of Education                                                            3,763                 505          (17)            4,251
U. S. Department of Energy                                                            16,881                  3,231       (104)            20,008
                                                                                                                                     (continued)
 1 Amount billed through June 30, 2006 (including prior years) but not yet paid as of September 30, 2006.
 2 Amounts paid and accrued but not yet billed for the period July 1, 2006 through September 30, 2006.
 3 Allocation of credits due from the public through September 30, 2006
 4 Total amount due to the fund for each agency as of September 30, 2006.




 U.S. Department of Labor—Office of Inspector General                                                                                         17
 Report Number: 22-07-002-04-431
 Report Relating to the
 Federal Employees’ Compensation Act Special Benefit Fund

                                                                        SECTION 2B
                                         U.S. Department of Labor
                                   Employment Standards Administration
                         Federal Employees’ Compensation Act Special Benefit Fund
                                                  Schedule of Net Intra-Governmental
                                                   Accounts Receivable by Agency
                                                      As of September 30, 2006

                                                                     (dollars in thousands)

                                                                                               Amounts                                 Net Intra-
                                                                    Amounts                    Expended            Credits Due       Governmental
                                                                  Billed Not Yet                Not Yet            from Public         Accounts
AGENCY                                                                Paid (1)                 Billed (2)              (3)           Receivable (4)
U. S. Department of Health and Human
Services                                                                   $ 48,593                        7,857             (248)           56,202
U. S. Department of Homeland Security                                        295,076                    48,087         (1,577)              341,586
U. S. Department of Housing and Urban
Development                                                                     15,203                     2,583              (77)           17,709
U. S. Department of the Interior                                             115,884                    18,646           (593)              133,937
U. S. Department of Justice                                                  173,456                    28,478           (929)              201,005
U. S. Department of Labor                                                       46,890                     7,584             (278)           54,196
U. S. Department of the Navy                                                 482,109                    77,693         (2,459)              557,343
U. S. Department of State                                                       15,628                     2,337              (82)           17,883
U. S. Department of Transportation                                           185,713                    30,366           (934)              215,145
U. S. Department of the Treasury                                             102,022                    16,389           (518)              117,893
U. S. Department of Veterans Affairs                                         319,378                    51,537         (1,651)              369,264
Other agencies                                                               128,887                    22,346           (699)              150,534
Total - all agencies                                                   $ 2,962,107                  764,968           (24,590)            3,702,485




1 Amount billed through June 30, 2006 (including prior years) but not yet paid as of September 30, 2006.
2 Amounts paid and accrued but not yet billed for the period July 1, 2006 through September 30, 2006.
3 Allocation of credits due from public through September 30, 2006
4 Total amount due to the fund for each agency as of September 30, 2006.




18                                                                              U.S. Department of Labor—Office of Inspector General
                                                                                                     Report Number: 22-07-002-04-431
                                                                           Report Relating to the
                                         Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2B
                               U.S. Department of Labor
                         Employment Standards Administration
               Federal Employees’ Compensation Act Special Benefit Fund
                           Schedule of Benefit Expense by Agency
                                 As of September 30, 2006

                                        (dollars in thousands)

                                                       Benefits        Change in        Total
                                                       Paid and        Actuarial       Benefit
AGENCY                                                 Accrued          Liability     Expense

Agency for International Development                      $ 4,434             (288)         4,146
Environmental Protection Agency                              4,003              28          4,031
General Services Administration                             15,432          (5,062)        10,370
National Aeronautics and Space Administration                7,377          (2,213)         5,164
National Science Foundation                                      139           (95)              44
Nuclear Regulatory Commission                                    815          (983)         (168)
Office of Personnel Management                               1,958          (5,205)       (3,247)
United States Postal Service                              924,482           (1,249)       923,233
Small Business Administration                                2,570          (1,922)          648
Social Security Administration                              24,791          (9,826)        14,965
Tennessee Valley Authority                                  58,296         (27,184)        31,112
U. S. Department of Agriculture                             73,699         (26,763)        46,936
U. S. Department of the Air Force                         133,271          (29,409)       103,862
U. S. Department of the Army                              189,028           23,696        212,724
U. S. Department of Commerce                                15,762          (3,251)        12,511
U. S. Department of Defense - other                         67,063         (30,475)        36,588
U. S. Department of Education                                1,821          (1,130)          691
U. S. Department of Energy                                  10,622          (2,093)         8,529
U. S. Department of Health and Human Services               26,109           3,020         29,129
U.S. Department of Homeland Security                      163,729           46,034        209,763
                                                                                      (continued)


U.S. Department of Labor—Office of Inspector General                                             19
Report Number: 22-07-002-04-431
  Report Relating to the
  Federal Employees’ Compensation Act Special Benefit Fund

                                                              SECTION 2B
                                      U.S. Department of Labor
                                Employment Standards Administration
                      Federal Employees’ Compensation Act Special Benefit Fund
                                       Schedule of Benefit Expense by Agency
                                             As of September 30, 2006

                                                          (dollars in thousands)

                                                                                       Benefits              Change in               Total
                                                                                       Paid and              Actuarial              Benefit
AGENCY                                                                                 Accrued                Liability            Expense
U. S. Department of Housing and Urban Development                                         $     8,199               (1,740)               6,459
U. S. Department of the Interior                                                               61,850             (10,383)               51,467
U. S. Department of Justice                                                                    94,040               65,224              159,264
U. S. Department of Labor                                                                      21,919                 8,874              30,793
U. S. Department of the Navy                                                                  258,582             (26,688)              231,894
U. S. Department of State                                                                       7,617                 2,381               9,998
U. S. Department of Transportation                                                             99,687             (54,941)               44,746
U. S. Department of the Treasury                                                               54,843             (43,883)               10,960
U. S. Department of Veterans Affairs                                                          172,121               35,488              207,609
Other agencies (1)                                                                          (16,336)              (56,150)              (72,486)
Total - all agencies                                                                   $ 2,487,923               (156,188)          2,331,735




 1 Non-billable, other agencies for which ESA has not individually calculated an actuarial liability, and change in accrued benefits.




 20                                                                 U.S. Department of Labor—Office of Inspector General
                                                                                         Report Number: 22-07-002-04-431
                                                                                      Report Relating to the
                                                    Federal Employees’ Compensation Act Special Benefit Fund

                                                         SECTION 2C

                                      Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


    Agreed-Upon Procedures Performed                           Results of Procedures

    1) Calculated the actuarial liability, by The actuarial liability as of September 30, 2006
       agency, as of September 30, 2006, calculated using KPMG’s Loss Development
       using KPMG’s Loss Development actuarial model is approximately $25.6 billion.
       actuarial model1.

    2) Recalculated the actuarial liability, by                The recalculated actuarial liability as of
       agency, as of September 30, 2006,                       September 30, 2006 using DOL’s Loss
       using DOL’s Loss Development                            Development actuarial model is approximately
       actuarial model2.                                       $25.9 billion.

    3) Compared the interest rate and                          The interest rate and inflation rate assumptions
       inflation   (COLA,       CPI-Med)                       used by the Loss Development actuarial model’s
       assumptions used by the DOL Loss                        by DOL and KPMG are as follows:
       Development model as of September
       30, 2006 to the interest rate and                                                                 DOL        KPMG
       inflation   (COLA,       CPI-Med)                       Interest rate
       assumptions used by KPMG’s Loss                           Year 1                                  5.17% 3.50%3
       Development model as of September                         Year 2                                  5.31% 3.50%
       30, 2006.
                                                               Inflation rates
                                                                COLA Year 1                              3.50%       N/A4
                                                                COLA Year 2                              3.13%       N/A
                                                                COLA Year 3                              2.40%       N/A
                                                                COLA Year 4                              2.40%       N/A
                                                                COLA Year 5 forward                      2.43%       N/A
                                                                CPI-Med Year 1                           4.00%       N/A
                                                                CPI-Med Year 2                           4.01%       N/A
                                                                CPI Med Year 3                           4.01%       N/A
                                                                CPI Med Year 4                           4.03%       N/A
                                                                CPI Med Year 5 forward                   4.09%       N/A


1
  KPMG’s model uses actual data to evaluate trends and project future payments. KPMG’s model also supplements its methodology
with the number of workers related to each agency in injury years 2000 through 2006.
2
  The DOL model uses a Loss Development Method by agency, by defined agency groups, and in total using inflation rate
assumptions on both past and future indemnity and medical benefits to adjust past data and project forward.
3
  KPMG’s model uses a lower interest rate because selected loss development patterns are used to project future payments by year
for each injury year and such loss patterns include a provision for inflation escalation and because the payments projected are
discounted to June 30, 2006.
4
  KPMG’s model does not use an inflation rate because it does not adjust data to the current level and therefore inflation is included in
the loss development patterns selected.


U.S. Department of Labor—Office of Inspector General                                                                                21
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                        SECTION 2C

                          Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results

Agreed-Upon Procedures Performed              Results of Procedures

4) Compared DOL’s actuarial liability as No exceptions were found as a result of applying
   of September 30, 2006 using DOL’s this procedure.
   Loss Development actuarial model to
   our calculation of the actuarial liability
   as of September 30, 2006 using
   DOL’s Loss Development actuarial
   model.

5) Compared DOL’s results for the fiscal      The actuarial liability as of September 30, 2006
   year end actuarial liability using         calculated using DOL’s Loss Development
   DOL’s Loss Development actuarial           actuarial model is approximately $271 million
   model to our results for the fiscal year   (1.1%) greater than the actuarial liability using
   end actuarial liability using KPMG’s       KPMG’s Loss Development actuarial model.
   Loss Development actuarial model.

6) Compared the average interest and          The average interest rate used in the DOL Loss
   average inflation rate (COLA and CPI-      Development Actuarial model increased from
   Med) assumptions used by the DOL           4.97% to 5.30% from September 30, 2005 to
   Loss Development actuarial model as        September 30, 2006.
   of September 30, 2005 to the average
   interest and average inflation rate        The average COLA rate used in the DOL Loss
   (COLA and CPI-Med) assumptions             Development Actuarial model increased from
   used by the DOL Loss Development           2.55% to 2.60% from September 30, 2005 to
   actuarial model as of September 30,        September 30, 2006.
   2006.
                                              The average CPI-med rate used in the DOL Loss
                                              Development Actuarial model increased from
                                              4.02% to 4.06% from September 30, 2005 to
                                              September 30, 2006.




22                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-07-002-04-431
                                                                      Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


 7) Calculated the change in the actuarial
    liability by agency and in the           The following agencies had changes in actuarial
    aggregate from September 30, 2005        liability from September 30, 2005 to September
    to September 30, 2006, based on the      30, 2006 of greater than 10%: OPM (-20%),
    DOL Loss Development actuarial           NRC (-12%).
    model and determined if there were
    agencies whose actuarial liability       The benefit payments for OPM and NRC
    changed by more than 10% during          changed from the year ended September 30,
    2006. For such agencies, calculate       2005 to the year ended September 30, 2006 by
    the percentage change in benefit         the following: OPM (-18%) and NRC (-20%).
    payments for the year ended
    September 30, 2005 to September
    30, 2006.

 8) Compared the interest rate (used for No exceptions were found as a result of applying
    discounting the future liability to the this procedure.
    present value) and inflation rates
    (COLA and CPI-Med) used by the
    DOL Loss Development actuarial
    model as of September 30, 2006 to
    the Fiscal Year 2007 Mid-Session
    Review prepared by OMB from which
    they are derived.

 9) Compared the actuarial liability by No exceptions were found as a result of applying
    agency,     as   reported      in  a this procedure.
    Memorandum to the CFOs of
    Executive Departments issued by
    DOL’s Chief Financial Officer dated
    September 29, 2006, for the current
    fiscal year end, to the liability
    calculated by the DOL Loss
    Development model and reported on
    the Projected Liability Reports as of
    September 30, 2006.




U.S. Department of Labor—Office of Inspector General                                      23
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


10) Compared both the program year No exceptions were found as a result of applying
    2006 benefit payments by agency this procedure.
    and the aggregate 2002-2006 benefit
    payments used by the DOL Loss
    Development actuarial model with the
    amount of benefit payments reported
    in the Summary Chargeback Billing
    Report which reflects benefits paid on
    behalf of each agency.

 11) Compared the agency groupings         The agency groupings used in the DOL Loss
     used in the DOL Loss Development      Development actuarial model as of September
     actuarial model as of September 30,   30, 2006 agreed to the agency groupings used in
     2006 with the agency groupings used   the DOL Loss Development actuarial model as of
     in the DOL Loss Development           September 30, 2005 without exception.
     actuarial model as of September 30,
     2005 and determined if there were
     any changes.



12) Compared the benefit payments          For one agency, the U.S. Department of State
    predicted by the 2005 DOL Loss         (DOS), the actual benefit payments for 2006 from
    Development actuarial model for 2006   the DOL Summary Chargeback Billing Report
    to the actual benefit payments for     varied by more than 20% and $2 million from the
    2006 from the DOL Summary              benefit payments predicted for 2006 by the 2005
    Chargeback Billing Report and          DOL Loss Development actuarial model. The
    identified agencies where the DOL      actual benefit payments for 2006 from the DOL
    Loss Development actuarial model       Summary Chargeback Billing Report for DOS of
    computed benefit payments varied by    $7.7 million were $2.3 million and 42% greater
    more than 20 percent and $2 million    than the $5.4 million of benefit payments
    from actual benefit payments made      predicted for 2006 by the 2005 DOL Loss
    during 2006 from the Summary           Development actuarial model.
    Chargeback Billing Report.




24                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-002-04-431
                                                                            Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                              SECTION 2C

                               Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Procedures and Results


    13) Compared the net effective rates            The net effective rate (interest rate minus inflation
        (interest minus inflation rates) for        rate5) for compensation of 2.7% used by the DOL
        compensation and medical utilized in        Loss Development actuarial model as of
        the Loss Development actuarial              September 30, 2006 was less than the net
        model as of September 30, 2006 by           effective rates for compensation utilized in the
        the Postal Service, OPM, Social             Loss Development actuarial model as of
        Security      Administration,    Energy     September 30, 2006 by Postal Service (3.30%),
        Employees’        Occupation      Illness   OPM (2.75%), Social Security Administration
        Compensation Program, and the               (3.00%), and the Black Lung Disability Trust Fund
        Black Lung Disability Trust Fund to         (4.51%). The Energy Employees’ Occupational
        the net effective rates (interest minus     Illness Compensation Program does not use an
        inflation rates) for compensation and       inflation rate for compensation.
        medical utilized by the DOL Loss
        Development actuarial model as of           The net effective rate (interest rate – inflation
        September 30, 2006.                         rate6) for medical of 1.24% used by the DOL Loss
                                                    Development actuarial model as of September
                                                    30, 2006 varied from the net effective rates for
                                                    medical utilized in the Loss Development
                                                    actuarial model as of September 30, 2006 by
                                                    Postal Service (-0.8%) the Energy Employees
                                                    Occupational Illness Compensation Program (-
                                                    1.69%) and the Black Lung Disability Trust Fund
                                                    (1.5%). The net effective rates for medical used
                                                    by OPM and SSA were not available.




5
    COLA
6
    CPI-Med


U.S. Department of Labor—Office of Inspector General                                                   25
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                              SECTION 2C

                               Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                       Results of Procedures

14) Confirmed accounts receivable balances             Confirmations were received from all 28
    due as of September 30, 2006 from the              agencies that were sent a confirmation
    Liability for Current Federal Employees’           request. The confirmed account receivable
    Compensation Act Benefits prepared by              balances as of September 30, 2006 agreed
    the DOL-OCFO and posted on the DOL                 with the account receivable balances as of
    website7 October 4, 2006, for all CFO Act          September 30, 2006 posted on the DOL
    agencies (except DOL) and the U.S.                 website October 4, 2006 except for the
    Postal Service, and compared confirmed             following 3 agencies:
    account receivable balances as of
                                                        Agency     Website       Confirmed    Difference
    September 30, 2006 to the amounts                              Amount         Amount
    posted on the DOL website October 4,                HHS      $ 48,593,189    48,540,946    52,243
    2006.                                               DOS        14,644,347    14,653,205    (8,858)
                                                        TRS       102,258,210   102,318,914    (60,704)




7
    http://www.dol.gov/ocfo/media/reports/FECA_liability_06_4q.pdf

26                                              U.S. Department of Labor—Office of Inspector General
                                                                    Report Number: 22-07-002-04-431
                                                                        Report Relating to the
                                      Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

Agreed-Upon Procedures Performed                   Results of Procedures

15) Compared        net     intra-governmental     The variance from comparing the net intra-
    accounts receivable balances reported by       governmental accounts receivable balances
    the OCFO on the Liability for Current          reported by the OCFO on the Liability for
    Federal Employees’ Compensation Act            Current Federal Employees’ Compensation
    Benefits report as of September 30, 2005       Act Benefits report as of September 30, 2005
    to the net intra-governmental accounts         to the net intra-governmental accounts
    receivable balances by Federal agency          receivable balances by Federal agency
    reported by the OCFO on the Liability for      reported by the OCFO on the Liability for
    Current         Federal         Employees’     Current Federal Employees’ Compensation
    Compensation Act Benefits as of                Act Benefits as of September 30, 2006 are
    September 30, 2006.                            identified in Exhibit A.

   Recalculated the September 30, 2006 Net
   Intra-governmental Accounts Receivable          The recalculated Net Intra-governmental
                                                   Accounts Receivable balances agreed to the
   balances for each agency by subtracting
                                                   balances reported by the OCFO as of
   the cash collections (reported by the
                                                   September 30, 2006 for each agency except
   OCFO on the SF-224s) and adding the FY
                                                   the following agency:
   2006 bills (sent to Federal agencies) to the
   September 30, 2005 ending balance and            Agency    Recalculated         OCFO        Difference
   compared the recalculated balance to the                     Amount            Amount
   balance reported by the OCFO in the              DOD       $160,998,539       161,104,826      106,287

   Liability for Current Federal Employees’
   Compensation Act Benefits as of
   September 30, 2006.

16) Compared the Summary Chargeback                Variances between the Summary Chargeback
    Billing Report for the period, July 1, 2005,   Billing Report for the period July 1, 2005
    through June 30, 2006, to the bills sent to    through June 30, 2006 and the bills sent to
    Federal entities dated August 15, 2006.        Federal agencies were noted for the following
                                                   agencies:

                                                      •      DOD             $       74,508
                                                      •      OPM             $       76,407




U.S. Department of Labor—Office of Inspector General                                                        27
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


17) Compared the Allocation of Accrued No exceptions were found as a result of
    Benefits as of September 30, 2006 applying this procedure.
    recorded on the OCFO Liability for Current
    Federal Employees’ Compensation Act
    Benefits report as of September 30, 2006
    to the accrual calculation worksheet
    prepared by DOL.

18) Compared the FY 2006 4th quarter           The FY 2006 4th quarter accounts receivable
    accounts receivable estimate prepared by   estimate prepared by the OCFO varied from
    the OCFO and reported on the 4th Quarter   the actual payments reported on the Summary
    FECA Liability Report to the FY 2006 4th   Chargeback Billing Report by $95,940,440.
    quarter benefit payments reported on the
    Summary Chargeback Billing Report.         As a result of this variance, the OCFO
                                               subsequently posted the actual amounts
                                               resulting in an adjustment of $95,940,440 to
                                               the estimate.




28                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-002-04-431
                                                                       Report Relating to the
                                     Federal Employees’ Compensation Act Special Benefit Fund
                                                                                    EXHIBIT A
                                                                      Results of Procedure 15

                                        SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results


                                                       Net Intra-Governmental
                                                        Accounts Receivable
                                                            September 30
                      Agency                            2006            2005      Change

Agency for International Development                        8,500         7,429      1,071

Environmental Protection Agency                             8,493         8,484            9

General Services Administration                            33,786        34,357       (571)

National Aeronautics and Space Administration              15,056        15,211       (155)

National Science Foundation                                   291           282            9

Nuclear Regulatory Commission                               1,836         1,883        (47)

Office of Personnel Management                              4,543         4,081        462

U.S. Postal Service                                       238,542       229,651      8,891

Small Business Administration                               5,643         5,283        360

Social Security Administration                             53,891        53,267        624

Tennessee Valley Authority                                 83,488        84,048       (560)

U.S. Department of Agriculture                            159,790       158,464      1,326

U.S. Department of the Air Force                          290,415       291,104       (689)

U.S. Department of the Army                               324,053       321,565      2,488

U.S. Department of Commerce                                32,116        30,656      1,460

U.S. Department of Defense - other                        185,086       181,608      3,478


U.S. Department of Labor—Office of Inspector General                                           29
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                                                 EXHIBIT A
                                                                   Results of Procedure 15

                                       SECTION 2C

                           Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Procedures and Results

                                                  Net Intra-Governmental
                                                   Accounts Receivable
                                                       September 30
                   Agency                          2006            2005         Change

U.S. Department of Education                               4,251      3,849          402

U.S. Department of Energy                              20,008        18,482         1,526
U.S. Department of Health and Human
Services                                               56,202        53,709         2,493

U.S. Department of Homeland Security                 341,586        357,700      (16,114)
U.S. Department of Housing and Urban
Development                                            17,709        17,441          268

U.S. Department of Interior                          133,937        131,141         2,796

U.S. Department of Justice                           201,005        179,626       21,379

U.S. Department of Labor                               54,196        52,098         2,098

U.S. Department of Navy                              557,343        554,281         3,062

U.S. Department of State                               17,883        16,813         1,070

U.S. Department of Transportation                    215,145        213,349         1,796

U.S. Department of the Treasury                      117,893        116,473         1,420

U.S. Department of Veterans Affairs                  369,264        357,244       12,020




30                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-002-04-431
                                                                       Report Relating to the
                                     Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results


 Agreed-Upon Procedures Performed                Results of Procedures

 19) Compared benefit payments recorded No exceptions were found as a result of
     in the Integrated Federal Employees applying this procedure.
     Compensation System (iFECS) and
     Central Bill Pay (CBP) databases to the
     SF-224s submitted to the U.S.
     Department of the Treasury as of March
     31, 2006, and September 30, 2006.

 20) Compared the benefit payments               The benefit payments reported in the Summary
     reported in the Summary Chargeback          Chargeback Billing Reports for the fiscal year
     Billing Reports for the fiscal year ended   ended September 30, 2006 were $17.4 million
     September 30, 2006 to the total benefit     less than the total benefit payments in the
     payments in the iFECS and CBP               iFECS and CBP databases for the fiscal year
     databases for the fiscal year ended         ended September 30, 2006.
     September 30, 2006.
                                                 The following agencies had increases
 21) Compared compensation and medical           (decreases) over 10% in compensation and
     bill payments by agency for the fiscal      medical bill payments for the year ended
     year ending September 30, 2006 from         September 30, 2006 compared to the year
     the Summary Chargeback Billing              ended September 30, 2005:
     Report prepared by DOL, to the
     compensation     and    medical    bill        •   NSF            16%
     payments by agency made for the fiscal         •   SBA            15%
     year ended September 30, 2005 from             •   OPM           -16%
     the Summary Chargeback Billing                 •   USAID          42%
     Report prepared by DOL, and identified         •   DOJ            17%
     any variances over 10 percent.                 •   NASA           20%
                                                    •   DOE            13%
                                                    •   EPA            11%
                                                    •   DoED           32%
                                                    •   DHS            16%

                                                 Variances for the remaining agencies were less
                                                 than 10 percent.




U.S. Department of Labor—Office of Inspector General                                         31
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                         Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results

Agreed-Upon Procedures Performed               Results of Procedures

22) For a selection of 102 compensation        For one of the 102 sample items, the amount of
    payments, performed tests for existence    the payment was not calculated using the data
    and accuracy by comparing payment          on the applicable form CA-1032, resulting in an
    data from the applicable Forms CA-1        overpayment of $318. The payment was
    Federal Notice of Traumatic Injury and     calculated using a rate of 3/4 of the claimant’s
    Claim      for     Continuation       of   compensation rate, instead of 2/3 of the
    Pay/Compensation, CA-2 Notice of           claimant’s compensation rate that should have
    Occupational Disease and Claim for         been used because the claimant had no
    Compensation,     CA-7     Claim     for   spouse or dependents reported on the CA-
    Compensation, and CA-1032 Request          1032.
    for Information on Earnings, Dual
    Benefits, Dependents and Third Party
    Settlements to the payment amounts in
    iFECS.

23) For a selection of 108 medical No exceptions were found as a result of
    payments,    performed   tests   for applying the procedure.
    existence and accuracy by comparing
    amount from the medical bill to the
    payment amount in CBP.

24) Calculated the change in the actuarial The actuarial liability decreased by $156 million
    liability reported on the September 30, from September 30, 2005 to September 30,
    2006 and September 30, 2005 2006.
    compilation reports prepared by DOL.

25) Calculated a 12-month projected benefit    The calculated projected benefit payments
    payment by multiplying the six month       based on the March 31, 2006 iFECS and CBP
    benefit payments from the March 31,        databases were $10 million (0.38%) greater
    2006, iFECS and CBP databases by           than the actual 12 month benefit payments.
    two and compared the projected 12-
    month total benefit payments to the
    actual 12-month total benefit payments
    as of September 30, 2006 calculated
    from the Summary Chargeback Billing
    Reports.



32                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-07-002-04-431
                                                                      Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Procedures and Results

 Agreed-Upon Procedures Performed              Results of Procedures

 26) Compared the Fiscal Year 2006 4th         The Fiscal Year     2006 4th quarter benefit
     quarter benefit expense estimate          expense estimate    calculated by the OCFO
     calculated by the OCFO on the Liability   varied from the      actual benefit expenses
     for   Current     Federal   Employees     recorded in iFECS   and CBP by approximately
     Compensation Act Benefits report to the   $131 million.
     actual benefits recorded in iFECS and
     CBP.                                      ESA and the OCFO subsequently adjusted the
                                               Fiscal Year 2006 4th quarter benefit expense
                                               estimates by approximately $96 million,
                                               resulting in a remaining difference of $35
                                               million.




U.S. Department of Labor—Office of Inspector General                                     33
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




                    THIS PAGE IS INTENTIONALLY LEFT BLANK




34                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-07-002-04-431
                                                                      Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




Appendix




U.S. Department of Labor—Office of Inspector General                                     35
Report Number: 22-07-002-04-431
Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund



ACRONYMS and ABBREVIATIONS

               AUP                    Agreed Upon Procedures
               CBP                    Central Bill Processing System
               CFO                    Chief Financial Officers
               COLA                   Cost of Living Allowance
               CPI-Med                Consumer Price Index for Medical
               DHS                    U.S. Department of Homeland Security
               DOD                    U.S. Department of Defense
               DOE                    U.S. Department of Energy
               DoED                   U.S. Department of Education
               DOJ                    U.S. Department of Justice
               DOL                    U.S. Department of Labor
               DOS                    U.S. Department of State
               ESA                    Employment Standards Administration
               FECA                   Federal Employees' Compensation Act
               FY                     Fiscal Year
               HHS                    U.S. Department of Health and Human Services
               IBNR                   Incurred But Not Reported
               iFECS                  Integrated Federal Employees’ Compensation
                                      System
               NASA                   National Aeronautics and Space Administration
               NRC                    Nuclear Regulatory Commission
               NSF                    National Science Foundation
               OCFO                   Office of the Chief Financial Officer
               OMB                    Office of Management and Budget
               OPM                    Office of Personnel Management
               OWCP                   Office of Workers' Compensation Programs
               SBA                    Small Business Administration
               SSA                    Social Security Administration
               TRS                    U.S. Department of Treasury
               USAID                  U.S. Agency for International Development



36                                      U.S. Department of Labor—Office of Inspector General
                                                                Report No: 22-06-006-04-431
